    PATIENT SATISFACTION WITH OUTPATIENT SURGERY
    A NATIONAL SURVEY OF MEDICARE BENEFICIARIES




RICHARD P. KUSSEROW                       DECEMBER 1989
INSPECTOR GENERAL
OAT-09-88-01002
PURPOSE

The purpose of this surveywasto determine and compare Medicare beneficiary
satisfaction with selectedoutpatient surgical and diagnostic procedures in
ambulatory surgical centers (ASCs) and hospital outpatient departments (OPDs).
The procedures were cataract extraction with intraocular lens implant, upper
gastrointestinal endoscopy,colonoscopyand bunionectomy.


BACKGROUND

The volume of outpatient surgery is increasing. By the end of 1989,an estimated
1,123ambulatory surgical centers (ASCs) will provide outpatient surgical services.
The number of surgeriesperformed in ASCs increasedto more than 1.7million in
1988,up almost 25 percent from 1987. The volume of outpatient surgery in hospital
outpatient departments (OPDs) is also on the rise. Between 1980and 1985,the
number of OPD surgeriesincreasedby 128percent to more than 7 million. The
increasein outpatient surgerieshasprompted concern about the quality of care and
medical necessityin ambulatory settings.

To assessthe quality of care and medical necessityof selectedoutpatient surgical
procedures, the Office of Inspector General (OIG) conducted interviews with
beneficiaries and physiciansand undertook a medical and financial review of
Medicare beneficiary records. We administered the telephone surveyto a national
sample of 1,170Medicare beneficiaries who underwent cataract surgery,upper
gastrointestinal endoscopy,colonoscopyand bunionectomy between January and
March 1988. We completed interviews with 837 beneficiaries (71.5% of the sample).


FINDINGS
       .   .              .              .                .
  nefiwes nrefer ou-erv              to ~
This wastrue regardlessof age,sex,surgical setting or procedure.
                                 .
                              ed urlthw ASCs and OPDs,
They were slightly more satisfied with ASCs than OPDs, with 98 percent of ASC
patients and 94 percent of OPD patients rating the facilities good or better.
                                         .        .   .
                           no mve            cow
Ninety percent of the respondentsreported that they had no postoperative
complications regardlessof surgical setting.
Postoperative care wasnot a problem for most beneficiaries. 

Ninety-two percent of the respondentswent home after their procedures. Of these, 

35 percent were able to care for themselves. Most respondentswho required 

assistancesaid that their relatives or friends did not have to take time off work to 

take care of them. 


Phvsicians.not beneficiaries, decide whether surgerywill be performed in an ASC or 

OPD. 


 Eleven percent of cataractpatients reported no improvement in their vision after 

.surp;erv. 


Most respondentsreported symptomsthat suggesttheir procedures were medicallv 

necessarv. 


Although most respondentspaid little (lessthan SlOO)or nothing, a few paid over 

$1000. 

Nearly 60 percent of the respondentssaid that they had no out-of-pocket expenses, 

primarily becausethey have supplemental private insurance. 




Thzlsreport analyzesthe resultsof the beneficiarysurveyand solelyrefzectsthe opinions 

of the benejkiak who wereinterviewed In a separatereport, we will d&cussthe 

resultsof thephysician interviewsand the medical andfinancial reviewof the 

beneficiaries’recork                                                                  -1



                                           ii
TABLE OF CONTENTS 



                                                                         Page 


EXECUTIVE    SUMMARY                                                      i


INTRODUCTION                                                              1


                                                                          3


  Beneficiaries prefer outpatient surgery
  to inpatient hospital stays

  Beneficiaries were very satisfied with both ASCs and OPDs

  Most respondentsreported no postoperative
  complications

  Postoperative care wasnot a problem
  for most beneficiaries

  Physicians,not beneficiaries, decide whether
  surgerywill be performed in an ASC or OPD

  Eleven percent of cataractpatients reported
  no improvement in their vision after surgery

  Most respondentsreported symptomsthat
  suggesttheir procedures were medically necessary

  Although most respondentspaid little (lessthan $100)
  or nothing, a few paid over $1000

APPENDICES

  Appendix A: 	 Sampleselection, surveymethods, analysisof respondents
                versusnonrespondents

  Appendix B: Responsesto all questions
The growth of outpatient surgery hasparalleled the growth of ambulatory surgical
centers (ASCs). Since the early 198Os,when the Health Care Financing
Administration began to reimburse ASCs for facility services,the number of ASCs
hasincreased dramatically. In 1983,there were 239 ASCs in operation. By the end
of 1989,an estimated 1,123facilities will provide outpatient surgical services. The
number of surgeriesperformed in ASCs increasedto more than 1.72million in 1988,
up 24.6 percent from 1.38million in 1987.

The volume of outpatient surgery in hospital outpatient departments (OPDs) is also
on the rise. Between 1980and 1985,the number of OPD surgeriesincreasedby
128percent from 3,207,OOO to 7,309,OOO.

Ophthalmic surgery accountsfor a large share of the procedures performed in ASCs
aswell asMedicare outpatient surgical procedures. In 1988,ophthalmic surgery
accounted for 26.7percent of all procedures performed in ASCs. Cataract
extraction with intraocular lens (IOL) implant is the most frequently performed
Medicare outpatient surgical procedure.

The volume of cataractsurgery is growing. The number of cataract extractions with
IOL implants increasedfrom 819,788in 1986to 954,794in 1987,a 16percent rise.
Although the OPD is the most common site for theseprocedures, its share of all
surgeriesremained constant at 69 percent from 1986to 1987while the share
performed in ASCs increasedfrom 15to 19percent.

The volume of outpatient diagnostic procedures is also growing. The number of
upper gastrointestinal endoscopiesreimbursed by Medicare increasedfrom 658,949
in 1986to 769,937in 1987,a 17percent rise. The number of colonoscopies
increasedfrom 254,820to 318,180during the sameperiod, a 25 percent rise. The
OPD is the most common site for both upper gastrointestinal endoscopiesand
colonoscopies. Physicians’offices are the next most common site, followed by ASCs.

The increasein outpatient surgical servicesover the past severalyears hasprompted
concern about the quality of care in ambulatory settings. In a recent article in
Health Affairs, two health policy analystsfor the American Association of Retired
Personswrote:
      Theenormousincreasein the total number of ambulatorysurgical
      proceduresand the rate of outpatient surgeryon the oldestold rake
      questionsabout the safetyand quality of ambulatorysurgeryand its
      effectson the health of thesesurgicalpatients.




                                         1

  The authors also expressedconcern about the medical necessityof outpatient
  procedures aswell asthe impact of ambulatory surgery on patients’ families who
  provide postoperative care.’

  One approach to assessingthe quality of care in outpatient settings is to measure
  patient satisfaction with medical care. Patients’ opinions are a useful source of
  information on the technical, interpersonal and financial aspectsof care. Patient
  perceptions are particulariy useful asa meansof assessingthe personal dimension of
  care.


  METHODOLOGY

  We selected a random sample of 1,170Medicare beneficiaries who underwent
  cataract surgery,upper gastrointestinal endoscopy,colonoscopyor bunionectomy
  between January and March 1988. We selectedthe samplefrom all Medicare
  beneficiaries who underwent these Medicare outpatient surgical procedures
  between January and March 1988. We stratified the sample so that one-half of the
  beneficiaries underwent surgeryin ASCs and the other half underwent surgery in
  OPDs. We used the Questionnaire Programming Language developed by the U.S.
  General Accounting Office to design a computer-assistedtelephone survey
  questionnaire and conducted the survey between May 11and July 31,1989.

    We basedthe sample size of 585 beneficiaries for eachsurgical setting on the sample
    size necessaryto satisfyspecific statistical testing criteria (i.e., power, confidence
    level and detectable difference) establishedfor studies on medical outcome and
    necessity. The overall responserate for the surveywas71.5percent (837
    beneficiaries). The proxy rate was 14percent both for beneficiaries who underwent
. 	 procedures in ASCs and beneficiaries who underwent procedures in OPDs. The
    proxy was a knowledgeable secondparty who answeredthe surveyquestions on the
    beneficiary’s behalf. Appendix A includes a full discussionof the sample selection,
    surveymethod and analysisof respondentsversusnonrespondents. Appendix B
    contains the responsesto all questions.

  i%k report analyzesthe resultsof the benqficiarysurveyand solelyrejlectsthe opinions
  of the beneficiarieswho wereinterviewed In a separatereport, wewill aTi.scussthe
  resultsof thephysician interviewsand the medical andjkzncial reviewof the
  beneficiaries’ recork




  1	   ShelahLeader and Marilyn Moon, “Medicare Trends in Ambulatory Surgery,”J&,&h Affain,
       Spring 1989, p. 167.




                                                2

FINDINGS


BENEFICIARIES PREFER OUTPATIENT SURGERY TO INPATIENT
HOSPITAL STAYS

According to our survey,Medicare beneficiaries have favorably received the
movement of certain procedures from the inpatient to the outpatient setting.
During the last severalyears,many procedureswhich involved hospital stayshave
been safely and effectively performed in the outpatient setting. Proceduressuch as
cataract surgery,bunionectomy and endoscopyare now routinely performed in the
OPD or ASC. Perhapsthe most dramatic shift in setting has taken place for cataract
surgery,which during the last few yearshasbecome almost entirely the province of
the OPD and the ASC.

Respondentsoverwhelmingly favored outpatient surgery over hospitalization,
regardlessof age,sex,surgical setting or procedure. In fact, 91 percent of all of the
respondentswho underwent cataract surgery and 5 out of 6 of those who had a
bunionectomy said that they preferred the outpatient setting. This preference for
the outpatient setting wasechoed by those beneficiaries who had upper
gastrointestinal endoscopiesand colonoscopies.

Out of the 837 respondents,72 said they would havepreferred to stayin the hospital
at least overnight. Fourteen of thesebeneficiaries volunteered explanations,suchas
heart conditions, no one to take care of them at home or a prior surgery resulting in
postoperative complications. Despite thesebeneficiaries’ preference for
hospitalization, only 3 of the 14reported postoperative complications asa result of
the surgery that wasthe subject of our survey.

BENEFICIARIES      WERE VERY SATISFIED WITH BOTH ASCs AND OPDs

Ninety-eight percent of those who had their procedures in ASCs, compared with 94
percent of those who had their procedures in OPDs, rated the facilities good,.very
good or excellent (seeFigure 1). When askedwhat they liked about the facilities,
more than one-half of the respondentsmentioned the staff.

Somerespondentsvolunteered reasonswhy they preferred ASCs over OPDs or
hospitals. For example:
      I byfar prefer theAX settingoverthe OPD settingbecauseof less
      paperwork, lesscost,a more convenientlocation and easierparking.
      I had another cataractsurgeryin I987 in an OPD. I muchprefer the
      ASC: no wait, verypretty, more organized,friendlier staff, transportation
      and goodfood


                                          3

      I muchprefer to go to theASC insteadof to a hospital. Thehospitalsare
      so crowdedand uncomfortable.
       Castmy votefor the singledaysurgerycenters--theyare much betterthan
       hospitals. Thefood is better,they are twiceasfast and theydidn’t charge
      for a million thingsyou didn’t evenIcnowyou got. I’d like to stayasfar
       awayfrom the hospital aspossible.
      I didk ‘t get billsfrom diflerent sources.Billing wasmore centralizedat
      theASC.
      I liked the individualized attention at theASC. ASCs are much better
      than hospitals.
Sevenrespondentssaid they preferred OPDs. For example:
       TheASC seemedlike aproduction line--theytake too manypatients. In
      a hospital, a patient with complicationscan quickly be transferredto the
      intensivecareunit.
      I had the colonoscopydonein the hospital and also in theASC. I didn ‘t
      notice any difference. TheASC mademepay in advance,which I didn ‘t
      like.
      I would havepreferred to bein a hospital. TheASC staff did not seemas
      experiencedor well-trainedashospitalstaff. Theyhad trouble with the
      I.K


       FIGURE 1. ASC PATIENTS WERE MORE SATISFIED THAN OPD PATIENTS


                          EXCELLENT
                              45%




                                                                        vER+’     GCCI’
                                                                                39%
                                                        OPD   (n-386)




                                         4

The preference for one setting over another may be attributed, in part, to the
amount of time a beneficiary spendsat the facility on the day of surgery. While we
did not ask the beneficiaries to identify where most of their time wasspent at the
facility (admission, surgery or postoperative recovery), we did obtain some estimates
of the total time spent.

Respondentswho underwent cataractsurgery spent lesstime in ASCs than in OPDs.
In almost two-thirds of the ASC cases,the beneficiaries spent lessthan 4 hours in
the facility on the day of their cataractsurgery. On the other hand, almost 25
percent of the OPD cataractpatients spent more than 6 hours at the hospital. The
amount of time spent in ASCs or OPDs for upper gastrointestinal endoscopy,
colonoscopyand bunionectomy wasnot significantly different.

Although the satisfaction level with ASCs and OPDs varied some,suchwasnot the
casefor physicians. Respondentsexpressedhigh levels of satisfaction with their
physiciansfor both settings. Nearly equal percentagesof ASC (96.3 percent) and
OPD (96.4 percent) respondentsrated their physiciansgood or better. Beneficiaries
were particularly satisfied with their physicians’competence,courtesy and
willingness to answerquestions,and almost all of the respondentswould
recommend their physician to family and friends who needed the sameprocedure
they had.

MOST RESPONDENTS REPORTED NO POSTOPERATIVE COMPLICATIONS

Although a postoperative complication may indicate lessthan acceptablequality of
care, beneficiaries are not alwaysable to distinguish between normal postoperative
occurrencesand true complications. For example,it is difficult to determine if the
pain, inflammation or changesin quality of vision describedby 13percent of the
cataractpatients were beyond the range of acceptability. This is also true for the
complications which were given for upper gastroendoscopy(sore throat, painful
swallowing and chestpain) and colonoscopy(abdominal pain or reaction to
sedative). The respondentsreported complication rates of 3 percent and 6 percent
respectively for theseprocedures and no complications following bunionectomy.
The complaints may not be considered complications from a clinical perspective.
Nevertheless,from the patient’s perspective,they were complications which spark
questions about quality of care.

Given this caveat,it is noteworthy that 90 percent of the respondentsreported they
had no postoperative complications regardlessof surgical setting or procedure.
Therefore, from a patient’s perspective,the ASC and OPD are equally safe
environments.




                                         5

POSTOPERATIVE        CARE WAS NOT A PROBLEM FOR MOST MEDICARE
BENEFICIARIES

The vast majority of the beneficiaries (92 percent) went home immediately after
surgery. Those who did not go home stayedin nursing homes,hotels or the homes
of relatives, friends or neighbors. Only 13 of the beneficiaries who did not go home
had to pay for their accommodations. The costwasusually lessthan $100. Of those
who went home, one-third said that they took care of themselves. The rest were
cared for by spouses,friends or relatives.

In contrast to the concernsexpressedby the authors of the Health Affairs article
mentioned on page 2, beneficiaries did not indicate that their postoperative care
imposed a burden on the relatives and friends who cared for them. During the
telephone interview, we specifically askedif the caregivershad to take time off work
and, in 90 percent of the cases,we were told that the person did not. Almost all of
the beneficiaries (97 percent) told us they had received clear instructions that
explained how to care for themselvesafter the surgery. More than one-half of the
patients had received the instructions both orally and in writing.

PHYSICIANS, NOT BENEFICIARIES,           DECIDE WHETHER SURGERY WILL BE
PERFORMED IN AN ASC OR OPD

Most beneficiaries who underwent cataract surgerysaid they have an ongoing
relationship with an ophthalmologist who performs their routine eye exams. While
the practice of optometry/ophthalmology referral hasbecome more prevalent in
somelocations, this wasnot an important factor for the respondentsin our survey.
Only 10percent of the sampledbeneficiaries said their routine eye examswere
performed by optometrists. Approximately three-quarters of the beneficiaries said
that
        l  their cataractwasdiscoveredduring a routine eye exam,
        a their ophthalmologist wasthe one who recommended surgery,
        l  they did not obtain a secondopinion and
        l  the ophthalmologist decided where the surgerywould be performed.

Optometrists and opticians recommendedsurgery to 17percent of the respondents,
and they made referrals to ophthalmologists for surgery in 14percent of the cases.

Although gastroenterologistsare primarily referral physiciansand do not usually
have ongoing relationships with their patients, they control the location of surgery
almost asfrequently asophthalmologists. Approximately 60 percent of the
beneficiaries indicated that the gastroenterologist chosethe facility for the
endoscopy. All six respondentswho had bunionectomies reported that their
surgeonsdecided where they would havetheir surgeries.




                                          6

ELEVEN PERCENT OF CATARACT PATIENTS REPORTED NO
IMPROVEMENT IN THEIR VISION AFTER SURGERY

Outcome is another factor that is frequently considered in determining quality of
care. Therefore, we askedbeneficiaries who underwent cataract surgery if their
vision had improved after the surgery. Since eachof the beneficiaries underwent the
surgery more than a year before we conducted our survey,sufficient time had
elapsedfor total recovery.

Ninety percent of the respondentswho underwent cataract surgery had surgery on
one eye during the first quarter of 1988. The remaining 10percent underwent
surgery in both eyesduring that period. Eighty-nine percent of the respondentswho
underwent cataract surgeryin one eye said their vision was either much or slightly
better than before surgery. Fifteen respondentsvolunteered commentsabout their
improved vision. For example:
      My vision is betterthan it has beenin manyyears. I wasable to go
      bowling two daysafter surgery.
      Cataractsurgerywaslike a miracle. Thenextday I could seeand even
      read a little.
       There’sno compcuisonbetweennot seeingand seeingcolors.
      I’d recommendcataractsurgeryto anyone. It makesa big differencein
      your life to have20120vision.
Eleven percent of the respondentswho had cataractsurgery said their vision was
about the same(5 percent) or worse (6 percent) than before surgery. (We will
compare the beneficiaries’ responseswith the medical review findings in our next
report.) Considering the combined outcomesfor respondentswho had cataract
surgery in both eyes,91.7percent of the eyeswere much or slightly better with a
total of 8.3 percent of the eyesrated about the same(5.0 percent) or worse (3.3
percent). Comments from those who were unsatisfied included the following:
      I will alwaysregretnot gettinganother opinion beforesurgery.Four
      weeksafier cataractsurgery,I still could not see.
      I had no symptoms.My doctor told me that I had cataractsand should
      havethem taken out right awaybecauseMedicare wasgoing to reduce
      reimbursement.My vision is about the sameasit usedto be.
      I did not experience&creased vision beforehand but a fiend’s husband
      has had cataractsurgeryand had experiencedgreat improvementin
      vision,so I decidedto havemy eyeschecked Thesurgeonrecommended
      surgery,and I wentahead with it. Now I am verya&appointedbecause
      my vision only improvedslightly.



                                         7

      I wasverypleasedwith the surgeon,facility and treatment,yet my
      eyesighthas barelyimproved
      I havebeengettingblin&r and blinder overtheyears. I havemacular
      degeneration,and theyperformed the cataractsurgerylookingfor a
      miracle, which theydidn’t find My eyesighthascontinued to fail, ad I
      am now basicallyblind
MOST RESPONDENTS REPORTED SYMPTOMS THAT SUGGEST THEIR
PROCEDURES WERE MEDICALLY NECESSARY

Ninety-three percent of the respondentsreported symptomsranging from darkening
of vision to blindness prior to cataractsurgery,heartburn to bleeding prior to upper
gastroentestinal endoscopy,abdominal pain to bleeding prior to colonoscopyand
pain to “shoeswouldn’t fit” prior to bunionectomy. Although someof these
symptomswould clearly justify the surgical procedure, others may not be sufficient
from a medical review perspective. A detailed discussionof “medical necessity”will
appear in the related OIG report on outpatient surgery.

The most common symptom reported by beneficiaries who had cataract surgerywas
decreasedvision in one or both eyes. Other symptomsincluded darkening of vision
and night blindness. Somebeneficiaries mentioned more than one symptom.
Almost one-half of the respondentssaid the symptomsexistedfor more than 2 years
prior to surgery. Three percent did not mention any symptoms.

One of the most commonjustifications for cataractsurgeryis that the cataract
prevents the patient from performing daily activities, i.e., the quality of life is
impaired. Inability to passa driver’s test is frequently mentioned asthe reasonwhy
cataract surgery is so prevalent. Since97 percent of the respondentsreported
symptoms,it is surprising that 31 percent said that their daily activities were not
hindered by the cataract. Actually, only 53 percent of the beneficiaries mentioned
that the cataractwasaffecting their automobile driving, while 66 percent said it was
affecting their ability to read.

Respondentswho had upper gastrointestinal endoscopyreported a variety of
medical problems and symptoms,including ulcers (37 percent), heartburn or
indigestion (30 percent) and difficult or painful swallowing (16 percent). Four
percent reported no symptoms. Forty-five percent of the respondentswho had a
colonoscopysaid they had a history of colonic polyps, while others reported
abdominal pain (23 percent), blood in the stool (22 percent) or lower
gastrointestinal bleeding (16 percent). Seventeenpercent of the respondentswho
had colonoscopiesreported no symptoms,the highest of any of the procedures in the
survey. Five of the six respondentswho had bunionectomies said that their bunions
were painful.




                                          8
ALTHOUGH MOST RESPONDENTS PAID LITTLE (LESS THAN $100) OR
NOTHING, A FEW PAID OVER $1000

Although the Medicare program hascoinsuranceprovisions that apply to both the
facility and surgeon’sfees,most beneficiaries in the surveydid not incur
out-of-pocket expenses.Of those who recalled their expenses(29 percent could
not), 59 percent said that they paid nothing, primarily becausethey haveprivate
insurance to supplement Medicare. Eighteen percent said they paid lessthan $100,
and 19percent paid between $100and $500. Nine respondentspaid over $1000,and
one paid more than $2000. While the percentageof those who paid more than
$1000is lessthan 1 percent, the broad range of out-of-pocket expensesindicates that
beneficiaries’ financial obligations may vary considerably for the samesurgery. All
of the respondentswho paid more than $1000were cataractpatients with the
exception of one respondent who had an upper gastrointestinal endoscopy. (See
Figure 2.)

Twenty-one respondentscomplained about the cost of their procedures. Complaints
related to OPD surgeriesoutnumbered ASC complaints by almost 2 to 1. Eight of
the complaints specifically mentioned that the anesthesiologychargeswere too high.




                     FIGURE 2. BENEFICIARY                  COSTS ARE MINIMAL

                            COSTS
                                    NONE



                     LESS    THAN    $100




                GREATER     THAN    $1000


                                            10         20     30     40   50   60   70
                                                              PERCENT
                                                 (N-564)




                                                     9

APPENDIX A

                 SAMPLE SELECTION,              SURVEY   METHODS,
         ANALYSIS OF RESPONDENTS                VERSUS   NONRESPONDENTS

SAMPLE     SELECTION

The purpose of this study wasto compare patient satisfaction in two outpatient
settings--ambulatory surgical centers (ASCs) and hospital outpatient departments
(OPDs). To draw the sample,we first selected 11 Stateswith the largest number of
Medicare-certified ASCs: California, Texas,Arizona, Florida, North Carolina,
Washington, Louisiana, Ohio, Maryland, Pennsylvaniaand Illinois. Next, we
selectedfour high-volume Medicare outpatient surgical and diagnostic procedures
for review. We selectedthe procedures on the basisof the 1985Part B Medicare
Annual Data (BMAD), the Health Care Financing Administration’s (HCFA) 1986
surveyof ASCs and input from ASC administrators, academiciansand medical
societies. We selected cataract extraction with intraocular lens implant, upper
gastrointestinal endoscopy,colonoscopyand bunionectomy.

To establish the universe,we requested procedure code printouts from the
Medicare carriers for the 11 Statesto identify beneficiaries who underwent the
selectedprocedures between January 1 and March 31,1988. We chosethis time
frame to allow the Medicare fiscal intermediaries ample time to complete
conversionof their claims processingsystemsto include outpatient HCFA Common
Procedure Coding System(HCPCS) codes,which carriers use. The conversions
were scheduledfor completion by September 1987. We dropped Washington from
consideration becausethe procedure code printouts showedthat ASCs in that State
did not submit Physicians’Current Procedural Terminology (CPT-4) codesfor three
of the four high-volume procedures that we selected:upper gastrointestinal
endoscopy,colonoscopyand bunionectomy.

After we identified the universe,we randomly selected585 beneficiaries who
underwent the selectedhigh-volume procedures in eachsetting for a total of 1,170
beneficiaries. The beneficiaries were proportionately selectedfrom each State
basedon the sum distribution of all outpatient surgery (both ASC and OPD) in the
State. The sample sizewasbasedon HCFA’s threshold of 5 percent for peer review
organizations’ evaluation of the quality of care in ambulatory settings (i.e., if more
than 5 percent of an OPD’s or AK’s claims do not meet specific criteria, that facility
is subject to special review). We assumedthe same5 percent error rate and set a
power of 80 percent to determine a two-fold difference. Assuming an error rate of 5
percent in OPDs, we should havean 80 percent probability of detecting a two-fold
difference in the rates of poor quality of care between OPDs and ASCs. Since this is
a two-tailed test, we will, for instance,determine a significant difference in the rates
between the two settingsif the rate in ASCs exceeds10percent or falls below 2.5
percent when the rate in OPDs in 5 percent.

                                          A-l
SURVEY     METHODS

We used a computer-assistedtelephone interviewing system(the U.S. General
Accounting Office’s Questionnaire Programming Language) to administer the
surveyand conducted interviews between May 11 and July 31,1989, from our office
in SanFrancisco, California. We administered the questionnaire in both English
and Spanish.

We used proxy respondentsfor 14percent of the interviews. These proxies
represented beneficiaries who were either physically or cognitively impaired. The
most common physical problem washearing loss. The proxy rate was 14percent for
respondentswho had their procedures in ASCs aswell asthose who had their
procedures in OPDs.

ANALYSIS    OF RESPONDENTS        VERSUS    NONRESPONDENTS

We interviewed 837 of the 1,170sampled Medicare beneficiaries. Our overall
responserate was71.5percent:
           71.5% completed interviews
           15.9%were unreachable
           6.1% were deceased
           3.4% refused to be interviewed
           3.1% were unable to complete interview
We were unable to reach approximately 16percent of the samplefor the following
reasons:(1) we could not obtain telephone numbers, (2) we did not have a summer
addressand telephone number (this wasa significant problem with beneficiaries
who underwent their procedures in Florida) and (3) we could not reach the
beneficiary after multiple contacts.

Potential bias of the obtained sample introduced by the occurrence of nonresponse
is alwaysa concern in surveys.This issuearisesbecausenonrespondentsmay be
characteristically different from respondentsin waysthat are important to the
objectives of the survey. Thus, to examine the nonrespondentsasa potential source
of bias,we statistically compared them to our obtained sample of respondentsfor all
available characteristics,including age,sex,surgical setting, type of procedure and
State.

There are no apparent differences in the agedistributions of respondentsand
nonrespondents (seeTable 1). However, the respondentsconsistedof slightly (66.8
percent) but significantly (p = 0.028) more femalesthan the nonrespondents (59.8
percent). (SeeTable 2.) There wasno difference in the surgical settings of the
respondentsand nonrespondents(p = 0.698). Both groupswere nearly exactly
divided between ASCs and OPDs (seeTable 3).




                                        A-2 

              Table       1 - AGE:    RESPONDENTS         VS. NONRESPONDENTS




1     85 +            i         81                  9.7      1      42            12.6
I     Total                                 1     100.0      I
CHI SQ. = 5.41
degreesof freedom = 5
P = 0.368 (n.s.)
              Table 2 - SEX:          RESPONDENTS         VS. NONRESPONDENTS

                                     Respondents                     Nonrespondents
      Sex                   Frequency 
            %             Frequency        %
      Male                      278 
              33.2             134          40.2
      Female                    559 
              66.8             199          59.8
      Total                     837 
             100.0            333          100.0
CHI SQ. = 4.85
degreesof freedom = 1
p = 0.028

    Table 3 - SURGICAL           SETTING:       RESPONDENTS       VS. NONRESPONDENTS

                                     Respondents                     Nonrespondents
      Setting               Frequency              %             Frequency        %
      ASC                       422                50.4             163          49.0
      OPD                       415                49.6             170          51.0
      Total                     837               100.0            333          100.0
CHI SQ. = 0.15
degreesof freedom = 1
P = 0.698 (n.s.)

                                                  A-3 

Respondentsincluded significantly (p = 0.003)more patients who underwent
cataract surgery and fewer patients who underwent upper gastrointestinal endoscopy
and colonoscopy.
                   PERCENTAGE DISTRIBUTIONS OF RESPONDENTS
                      AND NONRESPONDENTS BY PROCEDURE




                                              UPPER    a    COLONOSCOPY        BUNIONECTOYY
                                                      PROCEDURE

Fewer upper gastrointestinal endoscopyand colonoscopypatients were represented
becausemany procedure code printouts from the carriers contained erroneous
information about surgical setting, and we had to identify 86 additional beneficiaries
who underwent these proceduresin ASCs and OPDs. We were unable to obtain
telephone numbers for all of the additional beneficiaries. This significant difference
in surgical settingsbetween the two groups is not materially affected by excluding
bunionectomies from the statistical analysis.

Finally, the geographic distributions of the respondentsand nonrespondentswere
significantly different. The most noticeable differences in the distributions were for
the Statesof California, North Carolina, Louisiana and Pennsylvania. California was
underrepresented in the sample,and North Carolina, Louisiana, Pennsylvaniaand
Maryland were overrepresented.

                  PERCENTAGE DISTRIBUTIONS OF RESPONDENTS
                       AND NONRESPONDENTS BY STATE
                          PERCENT
                    401




                           a        FL   TX   P*       AZ   OH   NC       IL      LA    MO
                                                       STATE




                                                      A-4 

APPENDIX B

              OUTPATIENT        SURGERY    STUDY-BENEFICIARY   SURVEY

The frequencies of responses are included in parentheses. For some questions, the
percentage total may not equal 100 percent because of multiple responses.


1. Date inter view was done

        LA-I-          I.J.J-I~I~I
         Year           Month        Day
2. OUTPATIENT SURGERYSTUDY BENEFICIARY SURVEY
        (CHECK ONLY ONE ANSWER)
        I-        1 1. Press ENTER to begin        . . .
3. 	 Hello,     my name is                                                 . I'm
     with the Office of Inspector               General in the U.S. Department
     of Health and Human Services.                 I would like to speak to
      (beneficiary's         name).    We are conducting       a study of Medicare
     beneficiaries          who had outpatient        surgery last year.     Your
     name was randomly chosen from a national                  list.   I'd like to
     ask you a few questions             about the care you received.         The
     interview       will    take about 15 minutes to complete.            Your
     answers will         be confidential.         All of the information     we
     gather will        be totaled     nationally.        The goal of our study is
     to improve the quality            of care for Medicare beneficiaries.
     May we start         the interview      now?
        (CHECK ONLY ONE ANSWER)
72% (837)           1. Yes, proceed with the interview     (GOT0
                       QUESTION 5)
 3%   ( 40)         2. No, bene refuses interview     (GOT0 QUESTION 134)
16%   (186)         3. No, bene is unreachable     (GOT0 QUESTION 134)
 6%   ( 71)         4. No, bene is deceased     (GOT0 QUESTION 134)
 3%   ( 36)         5. No, bene cannot complete interview     (GOT0
                       QUESTION 134)
 0% (        0)     6. No, don't have time to talk now




                                             B-l
4. 	 When can I call            you back ? (Take notes    on call    sheet)
       (CHECK ONLY ONE ANSWER)
      1 1 1. Press ENTER to end survey                   . . .
      PEASE SKIP TO QUESTION 133 

5. 	 Time interview            was started.
       l-l-l-l-l-l
6. 	 Enter the 5-digit    code for the beneficiary's                procedure.
       (Type over default    procedure)
67%   (562)          1.   66984 

 4%   ( 37)          2.   66983 

 8%   ( 70)          3.   43235 

 7%   ( 56)          4.   43239 

 5%   ( 40)          5.   45380 

 8%   ( 66)          6.   45385 

<l%   ( 1)           7.   28290 

Cl%   ( 3)           8.   28296 

<l%   ( 2)           9.   28298 

7. Where was the procedure                 performed?
       (CHECK ONLY ONE ANSWER)
50% 	(422)       1. ASC
50% (415)        2. OPD
8. Enter      the name of the setting.


9. Survey      participant          is   . . .
      (CHECK ONLY ONE ANSWER)
86% 	(718)       1. beneficiary
14% (119)        2. proxy




                                                 B-2 

10. 	 According  to our records,  you had [procedure]     in                  [facility]
      last year. (Specify   name of doctor on beneficiary                       history)
      performed the procedure.    Is this correct?
       (CHECK ONLY ONE ANSWER)
71% (596)     1. Yes,     had cataract      (eye)   surgery       (GOT0 QUESTION
                 11)
15% (126)     2. Yes,     had endoscopy    (GOT0 QUESTION 50)
13% (105)     3. Yes,     had colonoscopy    (GOT0 QUESTION 60)
 I%(    6)    4. Yes,     had bunion removed    (GOT0 QUESTION 72)
(1% ( 4)      5. No,     had other procedure    (GOT0 QUESTION 134)
11. 	 What were your      symptoms of cataract(s)?            (Enter    all     answers
      that apply)
14%   ( 75)   1.    darkening    (yellowing)    of vision 

10%   ( 53)   2.    night blindness 

79%   (428)   3.    decreased vision       in one or both       eyes

 6%   ( 30)   4.    near-sightedness

 7%   ( 39)   5.    blindness    in one or both eyes

 3%   ( 16)   6.    no symptoms

      ( 12)   7.    don't know
      ( 11)   8.    no answer
12. Did beneficiary        report   other    symptoms?
       (CHECK ONLY ONE ANSWER)
23% (137)  1. yes (GOT0 QUESTION 13)
77% (459)  2. no
     PLEASE SKIP TO QUESTION 14
13. What other       symptoms did beneficiary         mention?


14. How long       did you have these       symptoms?
       (CHECK ONLY ONE ANSWER)
14%   ( 64)   1.   l-6 months before surgery
15%   ( 72)   2.   6-12 months before surgery
22%   (102)   3.   l-2 years before surgery
49%   (229)   4.   over 2 years before surgery
      ( 94)   5.   don't know
      ( 35)   6.   no answer




                                         B-3 

15. 	 Were any daily         activities              difficult      because               of your
      cataract(s)?
       (CHECK ONLY ONE ANSWER)
69% (391)  1. yes (GOT0 QUESTION 16)
31% (179)  2. no
    ( 11) 3. don't know
    ( 15) 4. no answer
     PLEASE SKIP TO QUESTION 19
16. 	 What activities         were difficult                ? (Enter      all            answers    that
      apply 1
53%   (184)      1.   driving

66%   (228)      2.   reading

14%   ( 49)      3.   watching TV 

17%   ( 59)      4.   sewing or needlepoint 

17. Did beneficiary           mention            other     activities?
       (CHECK ONLY ONE ANSWER)
18% ( 72) 1. yes (GOT0 QUESTION 18)
82% (319)  2. no
     PLEASE SKIP TO QUESTION 19
18. What other         activities              did beneficiary           mention?
         -----                  -mm-----                                        -mm--­


         mm---                  -mm------                                       -m----
                                                                                                     I      1

         -----                  -me-----                                        ----                 l-l-
       I-I

19. Do you currently              have routine             eye exams?
       (CHECK ONLY ONE ANSWER)
81% (473)   1. yes (GOT0 QUESTION 20)
19% 	(112)  2. no
     ( 3) 3. don't know.
     ( 8) 4. no answer
      PLEASE SKIP TO QUESTION 23
20. Who performs          these             exams?
       (CHECK ONLY ONE ANSWER)
90% (421)        1.   ophthalmologist
10% 	( 45)       2.   optometrist     or optician
     ( 5)        3.   don't know
     ( 2)        4.   no answer

                                                     B-4
21. Was the cataract     discovered      during       a routine           eye exam?
       (CHECK ONLY ONE ANSWER)
76% (349)    1.   yes (GOT0 QUESTION 22)
24% 	(109)   2.   no
     ( 12)   3.   don't know
     ( 3)    4.   no answer
      PLEASE SKIP TO QUESTION 23
22. 	 During that exam, were you told about any other                       disease    or
      condition  that was affecting your eyesight?
       (CHECK ONLY ONE ANSWER)
17% ( 57)    1.   yes
83% 	(281)   2.   no
     ( 9)    3.   don't know
     ( 2)    4.   no answer
23. Who recommended that       you have cataract           surgery?
       (CHECK ONLY ONE ANSWER)
70%   (400)  1. ophthalmologist
17%   ( 96) 2. optometrist      or optician
 3%   ( 19) 3. primary care physician
 8%   ( 43) 4. self
 2%   ( 14) 5. other     (GOT0 QUESTION 24)
      ( 17) 6. don't know
      ( 7) 7. no answer
       PLEASE SKIP TO QUESTION 25
24. Who recommended that       beneficiary        have cataract            surgery?
       --                                            ---          -----


       m,-                                           ---          me--­


       e­                                            ---          -----


       -




25. Did you get a second opinion             about   the need for           surgery?
      (CHECK ONLY ONE ANSWER)
21% (120)    1.   yes
79% 	(439)   2.   no
     ( 25)   3.   don't know
     ( 12)   4.   no answer




                                      B-5 

26. How did you choose your            surgeon?
       (CHECK ONLY ONE ANSWER)
 5%   ( 27) 1. saw advertisement
38%   (218)  2. referred   by friend   or relative
14%   ( 78) 3. referred    by optometrist    or optician
 6%   ( 36) 4. referred    by primary care physician
26%   (146)  5. surgeon is my regular     eye doctor
12%   ( 66) 6. other     (GOTO-QUESTION 27)
      ( 12) 7. don't know
      ( 13) 8. no answer
       PLEASE SKIP TO QUESTION 28
27. How did beneficiary           choose surgeon?
                                                                     -----
                                                                     -----
                                                                     -----


28. Who decided      that     you would have your         surgery      in    [facility]?
       (CHECK ONLY ONE ANSWER)
76% (428)    '1.   ophthalmologist
24% 	(137)    2.   self
     ( 13)    3.   don't know
     ( 18)    4.   no answer
29. 	 Were you given        options   about where you could            have your
      surgery?
       (CHECK ONLY ONE ANSWER)
21% (109)    1.    yes
79% 	(402)   2.    no
     ( 48)   3.    don't know
     ( 37)   4.    no answer
30. 	 Did beneficiary    have cataract          surgery    in both       eyes during
      1st qtr.,    1988?
      (CHECK ONLY ONE ANSWER)
10% ( 60)    1. yes         (GOT0 QUESTION 32)
90% (536)    2. no




                                        B-6 

31. 	 Did you have to have another operation             on the same eye
      after the cataract was removed?
          (CHECK ONLY ONE ANSWER)
 3% ( 15) 1. yes
97% (521)  2. no
     PLEASE SKIP TO QUESTION         33
32. 	 Did you have to have another operation             in either   eye after
      your cataracts were removed?
          (CHECK ONLY ONE ANSWER)
12% ( 7) 1. yes
88% ( 53) 2. no
     PLEASE SKIP TO QUESTION 36
33. 	 Did you have laser treatment            after surgery   (NOTE: to
      correct clouding  of posterior           capsule)?
          (CHECK ONLY ONE ANSWER)
28% (141)  1. yes (GOT0 QUESTION 34)
72% (362)  2. no
    ( 21) 3. don't know
    ( 12) 4. no answer
     PLEASE SKIP TO QUESTION 42
34. When did you have this        treatment?
          (CHECK ONLY ONE ANSWER)
14%   (   15)   1.   less than 2 months after surgery
42%   (   46)   2.   2-6 months after surgery
25%   (   27)   3.   6-12 months after surgery
20%   (   22)   4.   more than a year after surgery
      (   31)   5.   don't know
      (    0)   6.   no answer
35. Where did you have this         treatment?
          (CHECK ONLY ONE ANSWER)
41% ( 55) 1. ambulatory    surgical     center
33% ( 44) 2. hospital   outpatient      department
26% ( 35) 3. ophthalmologist's      office
    ( 7) 4. don't know
    ( 0) 5. no answer
     PLEASE SKIP TO QUESTION 42



                                      B-7 

36. 	 Did you have laser treatment   in either            eye after    surgery
      (NOTE: to correct  clouding  of posterior            capsule)?
          (CHECK ONLY ONE ANSWER)
10% ( 6) 1. yes, right    eye (GOT0 QUESTION 37)
 5%(    3)  2. yes, left eye  (GOT0 QUESTION 40)
13% ( 8) 3. yes,    both eyes  (GOT0 QUESTION 39)
72% ( 43) 4. no
     ( 0) 5. don't know
     ( 0) 6. no answer
      PLEASE SKIP TO QUESTION 43
37. When did you have the treatment             in your    right   eye?
          (CHECK ONLY ONE ANSWER)
33%   (     2)   1.   less than 2 months after surgery
33%   (     2)   2.   2-6 months after surgery
17%   (     1)   3.   6-12 months after surgery
17%   (     1)   4.   more than a year after surgery
      (     0)   5.   don't know
      (     0)   6.   no answer
38. Where did you have the treatment?
          (CHECK ONLY ONE ANSWER)
83% (       5) 1. ambulatory    surgical     center
 0% (       0) 2. hospital   outpatient      department
17% 	(      1) 3. ophthalmologist's      office
     (      0) 4. don't know
     (      0) 5. no answer
          PLEASE SKIP TO QUESTION 43
39. When did you have the treatment             in your   right    eye?
          (CHECK ONLY ONE ANSWER)
14% (       1)   1.   less than 2 months after surgery
14% (       1)   2.   2-6 months after surgery
43% (       3)   3.   6-12 months after surgery
29% (       2)   4.   more than a year after surgery
    (       1)   5.   don't know
    (       0)   6.   no answer




                                        B-8 

40. When did you have the treatment               in your    left      eye?
          (CHECK ONLY ONE ANSWER)
43%   (     3)   1.   less than 2 months after  surgery
14%   (     1)   2.   2-6 months after surgery
29%   (     2)   3.   6-12 months after surgery
14%   (     1)   4.   more than a year after surgery
      (     1)   5.   don't know
      (     0)   6.   no answer
41. Where did you have the treatment(s)?
          (CHECK ONLY ONE ANSWER)
88% (       7) 1. ambulatory    surgical     center
13% (       1) 2. hospital   outpatient      department
 0% 	(      0) 3. ophthalmologist's      office
     (      0) 4. don't know
     (      0) 5. no answer
          PLEASE SKIP TO QUESTION 43
42. 	 How would you compare your         vision    now to your         vision   before
      the surgery?
          (CHECK ONLY ONE ANSWER)
70%   (363)  1. vision is much better
19%   ( 98) 2. vision  is slightly   better
 5%   ( 27) 3. vision  is about the same
 6%   ( 29) 4. vision  is worse
      ( 9) 5. don't know
      ( 10) 6. no answer
       PLEASE SKIP TO QUESTION 45
43. 	 How would you compare your vision            in your     right     eye now to
      your vision before the surgery?
          (CHECK ONLY ONE ANSWER)
75%   ( 45)      1..vision is much better
13%   ( 8)       2. vision is slightly   better
 7%   ( 4)       3. vision is about the same
 5%   ( 3)       4. vision is worse
      ( 0)       5. don't know
      ( 0)       6. no answer




                                       B-9 

.
    44. How would you compare your vision                      in your     left      eye now to
        your 	 vision before the surgery?
          (CHECK ONLY ONE ANSWER)
    80% ( 48)     1.   vision is much better
    15% ( 9)      2.   vision is slightly   better
     3%(   2)     3.   vision is about the same
     2%(   1)     4.   vision is worse
         ( 0)     5.   don't know
         ( 0)     6.   no answer
    45. 	 Did you have problems          with   your     stitches        after       cataract
          surgery?
          (CHECK ONLY ONE ANSWER)
    10% ( 58)     1.   yes
    90% 	(523)    2.   no
         ( 7)     3.   don't know
         ( 8)     4.   no answer
    46. Did you have any complications                 after      surgery?
          (CHECK ONLY ONE ANSWER)
    13% ( 74) 1. yes (GOT0 QUESTION 47)
    87% 	(509)  2. no
         ( 4) 3. don't know
         ( 9) 4. no answer
          PLEASE SKIP TO QUESTION 92
    47. 	 What complications      did you have? (Enter               all     answers       that
          apply )
    26% ( 9)     1.    infection 

     3%(   1)    2.    bleeding

    20% ( 7)     3.    pain 

     9%(   3)    4.    pressure in the eye

    11% ( 4)     5.    fluid    accumulation  in the retina 

    14% ( 5)     6.    inflammation     in the eye

    34% ( 12)    7.    changes in the quality      of vision                (e.g.,      halos) 

    48. Did beneficiary        mention     other      complications?
          (CHECK ONLY ONE ANSWER)
    78% ( 58) 1. yes (GOT0 QUESTION 49)
    22% 	( 16) 2. no
          PLEASE SKIP TO QUESTION 92



                                           . B-10 

49. What other         complications        did beneficiary           mention?

       ---             ------                      ---------_
       ---             ------                      ---------_
       ---             ------                      ---------_

      P&SE      SKIP TO QUESTION 92
50. 	 Who decided           that   you should      have your       endoscopy       in
      [facility]?
      (CHECK ONLY ONE ANSWER)
57% ( 66)      1;   gastroenterologist
17% ( 20)      2.   primary care physician
 5% ( 6)       3.   other
20% 	( 23)     4.   self
     ( 5)      5.   don't know
     ( 6)      6.   no answer
51. Did you have symptoms (of                upper       gastrointestinal          problems)?
      (CHECK ONLY ONE ANSWER)
96% (113)   1. yes (GOT0 QUESTION 52)
 4%(    5) 2. no
     ( 5) 3. don't know
     ( 3) 4. no answer
      PLEASE SKIP TO QUESTION 55
52. What were your              symptoms ? (Enter        all    answers     that   apply)
30% ( 25)      1.   heartburn    or indigestion
 6%(   5)      2.   upper gastrointestinal        bleeding
16% ( 13)      3.   difficult    or painful     swallowing
 5%(   4)      4.   black stool 

10% ( 8)       5.   vomiting

37% ( 31)      6.   ulcer 

 5%(   4)      7.   weight loss 

 2% ( 2)       8.   filling    up fast when eating 

 7%(   6)      9.   diarrhea 

53. Did beneficiary              mention   other     symptoms?
      (CHECK    ONLY ONE ANSWER)

58% ( 66)      1. yes           (GOT0 QUESTION 54)
42% ( 47)      2. no
     PLEASE     SKIP       TO QUESTION      55




                                            B-11 

54. 	 What other                symptoms did beneficiary            mention?
           -        --                                                             ----

           -        --                                                             ----

           -        --                                                             mm-­

           -
55. Who explained                  the results      of the endoscopy           to you?
          (CHECK ONLY ONE ANSWER)
87% ( 99)                1.   gastroenterologist
 8% ( 9)                 2.   primary care physician
 5% ( 6)                 3.   no one explained     the findings
    ( 8)                 4.   don't know
    ( 4)                 5.   no answer          '
56. Did you have any complications                          after    the procedure?
          (CHECK ONLY ONE ANSWER)
 3% ( 4) 1. yes (GOT0 QUESTION 57)
97% 	(118)  2. no
     ( 1) 3. don't know
     ( 3) 4. no answer
      PLEASE SKIP TO QUESTION 92
57. 	 What complications                  did you have ? (Enter         all    answers that
      apply)
50%   (        1)        1.   sore throat 

50%   (        1)        2.   painful     swallowing

50%   (        1)        3.   chest pain

 0%   (        0)        4.   fever 

 0%   (        0)        5.   vomiting      blood 

 0%   (        0)        6.   adverse reaction        to the sedative 

 0%   (        0)        7.   perforation 

58. Did beneficiary                  mention     other     complications?
          (CHECK ONLY ONE ANSWER)
50% (       2) 1. yes (GOT0 QUESTION 59)
50% (       2) 2. no
          PLEASE SKIP TO QUESTION 92




                                                  B-12 

59. What other                complications              did beneficiary           mention?
         -        --         ------                              -------                          ---
         -        --         -mm--­                              -------                          ---
         -        ~-         ----m-                              -------                          ---
        PLE. SE SKIP TO QUESTION 92

60. 	 Who decided                     that     you should       have your      colonosopy        in
      [facility]?
        (CHECK ONLY ONE ANSWER)
60% ( 62)              1. gastroenterologist
20% ( 21)              2. primary care physician
 3% (        3)        3. other
17% 	( 17)             4.   self
     ( 2)              5. don't know
     ( 0)              6. no answer
61. Did you have symptoms (of                               lower     gastrointestinal           problems)?
        (CHECK ONLY ONE ANSWER)
83% ( 84)     1. yes (GOT0 QUESTION 62)
17% 	( 17)    2. no
     ( 0)     3. don't know
     ( 4)     4. no answer
        PLEASE SKIP TO QUESTION 65

62. What were your                           symptoms ? (Enter        all   answers      tr,at   apply)
16% ( 10)              1. lower gastrointestinal        bleeding

23% ( 15)              2. abdominal pain

22% ( 14)              3. black stool or blood in stool 

14% ( 9)               4. change in bowel habit (e.g.,          constipation) 

45% ( 29)              5. history  of colonic      polyps 

 2%(         1)        6. iron deficiency      (anemia) 

63. Did beneficiary                           mention   other     symptoms?
        (CHECK ONLY ONE ANSWER)
42% ( 35)     1. yes (GOT0 QUESTION 64)
58% ( 49)        no    2.
        PLEASE SKIP TO QUESTION 65




                                                         B-13 

64. What other      symptoms did beneficiary              mention?

       ---
       ---
       ---
       -

65. 	 Do you have a family      history        (parents     or siblings) -   of colon
      cancer?
      (CHECK ONLY ONE ANSWER)
20% ( 19)    1.    yes
80% 	( 78)   2.    no
     ( 5)    3.    don't know         .
     ( 3)    4.    no answer
66. Have you had colon       cancer       in the past?
      (CHECK ONLY ONE ANSWER)
14% ( 14)    1.    yes
86% 	( 86)   2.    no
     ( 1)    3.    don't know
     ( 4)    4.    no answer
67. Who explained      the results        of the colonoscopy         to you?
      (CHECK ONLY ONE ANSWER)
91% ( 87)     1.   gastroenterologist
 7%(   7)    2.    primary care physician
 2% ( 2)     3.    no one explained   the findings
     ( 3)    4.    don't know
     ( 6)    -5.   no answer
68. Did you have any complications               after    the procedure?
     (CHECK ONLY ONE ANSWER)
 6% (   6) 1. yes (GOT0 QUESTION 69)
94% 	( 98) 2. no
     ( 0) 3. don't know
     ( 1) 4. no answer
      PLEASE SKIP TO QUESTION 92




                                      B-14 

69. 	 What complications              did you have? (Enter            all   answers   that
      apply 1
67% (         2)   1. persistent  abdominal pain
 O%(          0)   2. serious or profuse rectal   bleeding
 0% (         0)   3. fever
33% (         1)   4. adverse reaction   to the sedative
 O%(          0)   5. perforation
70. Did beneficiary                mention    other    complications?
          (CHECK ONLY ONE ANSWER)
33% (         2)   1. yes      (GOT0 QUESTION 71)
67% 	 (       4j   2x0         .          -
          PLEASE SKIP TO QUESTION 92
71. What other            complications         did beneficiary         mention?
          -                                                                           --
          -                                                                           --
          -                                                                           --
          PLE. SE SKIP TO QUESTION 92
72. Do you see a podiatrist                   on a regular        basis?
          (CHECK ONLY ONE ANSWER)
17% (         1)   1. yes
83% (         5)   2. no
      (       0)   3. don't know
      (       0)   4. no answer
73. 	 How long          did you have the bunion           that     was removed?
          (CHECK ONLY ONE ANSWER)
 0% (         0)   1. less     than    a year
20% (         1)   2.    l-5 years
60% (         3)   3.    5-10 years
20% (         1)   4. more than 10 years
     (        1)   5. don't know
     (        0)   6. no answer




                                                B-15
74.   Was    the bunion     painful?
          (CHECK ONLY ONE ANSWER)
83% (       5) 1. yes (GOT0 QUESTION 75)
17% 	(      1) 2. no
     (      0) 3. don't know
     (      0) 4. no answer
          PLEASE SKIP TO QUESTION 76
75. How long was the bunion               painful?
          (CHECK ONLY ONE ANSWER)
 O%(        0)   1.   less than a year
80% (       4)   2.   l-5 years
 0% (       0)   3.   5-10 years
20% 	(      1)   4.   more than 10 years
     (      0)   5.   don't know
     (      0)   6.   no answer
76. Do you have a bunion               on your   other   foot?
          (CHECK ONLY ONE ANSWER)
33% (       2)   1. yes
67% (       4)   2. no
    (       0)   3. no answer
77. Why did you, have surgery?
          (CHECK ONLY ONE ANSWER)
33%   (     2)   1.   bunion was painful
50%   (     3)   2.   bunion was getting     worse
17%   (     1)   3.   shoes didn't    fit properly
 0%   (     0)   4.   conservative    care failed     (e.g., comfortable
                      shoes)
0% (        0)   5.   primary care physician       recommended it
0% (        0)   6.   podiatrist   recommended it
0% (        0)   7.   orthopedic   surgeon recommended it
   (        0)   8.   don't know
   (        0)   9.   no answer




                                           B-16 

78. Were you given alternatives                      to surgery     (e.g.,           change in
    shoes)?
     (CHECK ONLY ONE ANSWER)
17% (      1) 1. yes (GOT0 QUESTION 79)
83% 	(     5) 2. no
     (     0) 3. don't know
     (     0) 4. no answer
         PLEASE SKIP TO QUESTION 80
79. How long              did you try    those     alternatives?
         (CHECK ONLY ONE ANSWER)
 O%(            0)   1.    less than a year
 0% (           0)   2.    l-5 years
lOO%(           1)   3.    5-10 years
 0% 	(          0)   4.    more than 10 years
     (          0)   5.    don't know
     (          0)   6.    no answer
80. How did you choose your                 surgeon?
         (CHECK ONLY ONE ANSWER)
17% (      1) 1. saw advertisement
 0% (      0) 2. referred   by friend    or relative
50% (      3) 3. referred   by primary care physician
 0% (      0) 4. I see podiatrist     for other problems
33% 	(     2) 5. other    (GOT0 QUESTION 81)
     (     0) 6. don't know
     (     0) 7. no answer
         PLEASE SKIP TO QUESTION 82
81. How did beneficiary                 choose surgeon?

                                                              mm­            -----


                                                              ---            -----


                                                              ---            mm--­

         l -I


82. Did you get a second opinion                      about   the need for            surgery?
         (CHECK ONLY ONE ANSWER)
33% (           2)   1.   yes
67% 	(          4)   2.   no
     (          0)   3.   don't know
     (          0)   4.   no answer




                                                 B-17 

83. 	 Who decided     that     you should      have your   bunion    removed in
      [facility]?
         (CHECK ONLY ONE ANSWER)
83% (     5)   1.   podiatrist
17% (     1)   2.   orthopedic  surgeon
 0% (     0)   3.   primary care physician
 O%(      0)   4.   self
    (     0)   5.   don't know
    (     0)   6.   no answer
84. 	 Were you given         options   about   where you could       have your
      surgery?
         (CHECK ONLY ONE ANSWER)
 O%(      0)   1.   yes
lOO%(     6)   2.   no
    (     0)   3.   don't know
    (     0)   4.   no answer
85. What kind       of anesthetic       did you have during         surgery?
         (CHECK ONLY ONE ANSWER)
50% (     2)   1.   general
50% (     2)   2.   local
 0% 	(    0)   3.   spinal
     (    2)   4.   don't know
     (    0)   5.   no answer
86. Were you given           choices   about   the anesthetic       you could    have?
         (CHECK ONLY ONE ANSWER)
17% (     1)   1.   yes
83% 	(    5)   2.   no
     (    0)   3.   don't know
     (    0)   4.   no answer




                                         B-18 

87. 	 How long after            surgery     could    you wear your         regular    shoes
      comfortably?
           (CHECK ONLY ONE ANSWER) 

33%    (       2)   1.   1 month after surgery
17%    (       1)   2.   l-2 months after surgery
17%    (       1)   3.   3-6 months after surgery
17%    (       1)   4.   more than 6 months after     surgery
17%    (       1)   5.   I still  cannot wear regular     shoes comfortably
       (       0)   6.   don't know
       (       0)   7.   no answer
88. Did you have any complications                       after   surgery?
           (CHECK ONLY ONE ANSWER)
 O%(           0)1. yes (GOT0 QUESTION 89)
lOO%(          6)2. no
    (          0)3. don't know
    (        0)  4. no answer
           PLEASE SKIP TO QUESTION 92
89. 	 What complications               did you have ? (Enter         all    answers   that
      apply >
 0% (          0)   1.   fever 

 O%C           0)   2.   infection 

 0% (          0)   3.   excessive      bleeding 

 0% (          0)   4.   excessive      pain 

 0% (          0)   5.   excessive      swelling 

90. Did beneficiary               mention    other      complications?
           (CHECK ONLY ONE ANSWER)
 O%(         0) 1. yes (GOT0 QUESTION 91)
 0% (        0) 2. no
           PLEASE SKIP TO QUESTION 92
91. What other            complications        did beneficiary           mention?
           -                                                                           --
           -                                                                           --
           -                                                                           --
           -




                                               B-19 

92. 	 Would you have preferred       to stay      in the hospital   overnight
      for your procedure?
      (CHECK ONLY ONE ANSWER)
 9% ( 72)    1.   yes
91% 	(712)   2.   no
     ( 26)   3.   don't know
     ( 23)   4.   no answer
93. Did you go home after        the procedure?
      (CHECK ONLY ONE ANSWER)
92% (736)   1. yes (GOT0 QUESTION 98)
 8% 	( 68) 2. no (GOT0 QUESTION 94)
     ( 2) 3. don't know
     ( 27) 4. no answer
      PLEASE SKIP TO QUESTION 101
94. Where did you stay?
      (CHECK ONLY ONE ANSWER)
54% ( 37) 1. home of relative   or neighbor (GOT0 QUESTION 101)
 6%(    4) 2. nursing home (GOT0 QUESTION 96)     -
40% ( 27) 3. other -(GOT0 QUESTION 95)
     ( 0) 4. no answer
      PLEASE SKIP TO QUESTION 101
95. Where did beneficiary        stay?




96. Did you have to pay to stay          there?
      (CHECK ONLY ONE ANSWER)
43% 	( 10)   1.   no (GOT0 QUESTION 101)
     ( 2)    2.   don't know (GOT0 QUESTION 101)
     ( 3)    3.   no answer  (GOT0 QUESTION 101)
57% ( 13)    4.   yes




                                    B-20 

97. How much did you have to pay to stay                   there?
         (CHECK ONLY ONE ANSWER)
80% (      8) 1. under $100
10% (      1) 2. $lOO-$500
10% (      1) 3. $500-$1000
 0% 	(     0) 4. over $1000
     (     1) 5. don't know
     (     1) 6. no answer
         PLEASE SKIP TO QUESTION 101
98. Who took         care of you at home after           the procedure?
         (CHECK ONLY ONE ANSWER)
35%   (258)     1.    self    (GOT0 QUESTION 101)

34%   (247)     2.    spouse    (GOT0 QUESTION 100)

24%   (176)     3.    other relative     (GOT0 QUESTION 100)

 3%   ( 23)     4.    neighbor     (GOT0 QUESTION 100)

 4%   ( 32)     5.    other 

99. Who took         care of beneficiary        at home?
         ----                                       --      ---            -    ---
         mm--                                       --      ---            -    ---
         m---                                       --      mm-            -    ---
         -




100. 	 Did spouse/other        relative/neighbor/other              have   to   take   time
       off work to take        care of you?
         (CHECK ONLY ONE ANSWER)
10% ( 44)       1.    yes
90% 	(410)      2.    no
     ( 6)       3.    don't know
     ( 4)       4.    no answer
101. 	 Were you given instructions   that explained how to prepare
       for the procedure   and how to take care of yourself after
       the procedure?
         (CHECK ONLY ONE ANSWER)
97% (760)   1. yes (GOT0 QUESTION 102)
 3% 	( 24) 2. no
     ( 25) 3. don't know
     ( 24) 4. no answer
      PLEASE SKIP TO QUESTION 105



                                           B-21 

102. 	 When were you given           these     instructions?
      (CHECK ONLY ONE ANSWER)
53% (370)    1.     before the day of the procedure

13% ( 89)    2.     the day of the procedure

34% (233)    3.     both before and the day of the procedure

    ( 58)    4.     don't know 

    ( 10)    5.     no answer 

103. 	 Were these     instructions           given     to you in writing,       orally    or
       both?
      (CHECK ONLY ONE ANSWER)
27% (194)    1.   writing
14% (102)    2.   orally
58% (412)    3.   both
    ( 41)    4.   don't know
    ( 11)    5.   no answer
104. Were the instructions             clear         to you?
      (CHECK ONLY ONE ANSWER)
99% (738)    1,   yes
 1% 	( 5)    2.   no
     ( 12)   3.   don't know
     ( 5)    4.   no answer
105. 	 Did a nurse from the facility,   a nurse from your doctor's
       office   or your doctor call you the evening of the
       procedure or the day after the procedure to check on your
       progress?
      (CHECK ONLY ONE ANSWER)
57% (387)   1. yes
43% 	(296)  2. no (GOT0 QUESTION 106)
     (109)  3. don't know
     ( 41) 4. no answer
      PLEASE SKIP TO QUESTION 107
106. Did you see the surgeon             the next         day for   follow-up     care?
      (CHECK ONLY ONE ANSWER)
63% (181)    1.   yes
37% 	(105)   2.   no
     ( 10)   3.   don't know
     ( 0)    4.   no answer


                                             B-22
107. 	 Approximately  how much time         did you spend in        [facility]
       the day of your procedure?
      (CHECK ONLY ONE ANSWER)
53% (377)     1.   under 4 hours
34% (241)     2.   4-6 hours
14% ( 97)     3.   over 6 hours
    ( 92)     4.   don't know
    ( 26)     5.   no answer
108. 	 Before the day of the procedure,     were you told              how much
       you would have to pay out-of-pocket?
      (CHECK ONLY ONE ANSWER)
33% (236)     1.   yes
67% 	(484)    2.   no
     ( 80)    3.   don't know
     ( 33)    4.   no answer
109. Approximately      what were your        out-of-pocket     expenses?
      (CHECK ONLY ONE ANSWER)
59% (334)     1.   none (GOT0 QUESTION 110)

18% (100)     2.   under $100 

19% (106)     3.   from $lOO-$500 

 3% ( 15)     4.   from $501-$1000 

 1% ( 8)      5.   from $lOOl-$2000 

<l% 	 ( 1)    6.   over $2000
      (240)   7.   don't know
      ( 29)   8.   no answer
      PLEASE SKIP TO QUESTION 113
110. Are you covered      by Medicaid       (Medi-Cal     in California)?
      (CHECK ONLY ONE ANSWER)
13% (43)      l.yes
87% (291)     2. no
111. Do you have private        insurance      to supplement     Medicare?
      (CHECK ONLY ONE ANSWER)
78% (260)     1. yes
22% ( 74)     2. no




                                     B-23 

112. 	 Did the facility           or the physician         send you a bill   you for
       the procedure?
         (CHECK ONLY ONE ANSWER)
18% ( 59)        1. yes
82% (275)        2. no
113. 	 Did you get any bills           after      you had the procedure      that   you
       had not expected?
         (CHECK ONLY ONE ANSWER)
14% (108)   1. yes (GOT0 QUESTION 114)
86% 	(647)  2. no
     ( 44) 3. don't know
     ( 34) 4. no answer
      PLEASE SKIP TO QUESTION 116
114. 	 Who billed  you ? (If beneficiary  received  bills from more
       than one provider,    record answer under other category)
         (CHECK ONLY ONE ANSWER)
15% (      13)   1.   surgeon     (GOT0 QUESTION 116)
 0% (       0)   2.   assistant    surgeon    (GOT0 QUESTION 116)
40% (      36)   3.   facility      (GOT0 QUESTION 116)
 3% (       3)   4.   laboratory       (GOT0 QUESTION 116)
18% 	(     16)   5.   anesthesiologist       (GOT0 QUESTION 116)
     (     18)   6.   don't know (GOT0 QUESTION 116)
     (      1)   7.   no answer      (GOT0 QUESTION 116)
24% (      21)   8.   other
115.' Who sent        these   bills   to the beneficiary?



         I -I


116. 	 Did you have to travel           outside     your    community   to have
       [procedure]?
         (CHECK ONLY ONE ANSWER)
25% (201)   1. yes (GOT0 QUESTION 117)
75% 	(605)  2. no
     ( 5) 3. don't know
     ( 22) 4. no answer
      PLEASE SKIP TO QUESTION 119



                                          B-24 

P




    117. Why did you have to travel                          outside   your   community?
           (CHECK ONLY ONE ANSWER) 

    33% ( 57).                    1. no outpatient    facility in my area 
 (GOT0
                                     QUESTION 119) 

    67% (116)                     2. my surgeon did not practice    in my
 area   (GOT0
                                     QUESTION 119) 

          ( 4)                    3. no answer     (GOT0 QUESTION 119)

          ( 24)                   4. other 

    118. Why did beneficiary                        have to travel     outside 
   community?
            ----------mm------­


            ----------m-------­


            -----------m--m---­


            -




    119. How would you rate                        the doctor     who performed     the procedure?
           (CHECK ONLY ONE ANSWER)
    57% (449)                     1. excellent
    31% (248)                     2. very good
     9%( 68)                      3.good
     2% ( 14)                     4. fair
     2% 	( 15)                    5. poor
         ( 21)                    6. don't know
         ( 18)                    7. no answer
    120. 	 What did you like                     about the doctor      who performed       the 

           procedure ? (Enter                    all answers that      apply) 

    38%   (284)                   1.   competence 

    49%   (369)                   2.   courtesy    (bedside manner)

    26%   (193)                   3.   willingness     to answer questions

    16%   (122)                   4.   willingness     to spend time with patient 

    22%   (163)                   5.   no specific     comment 

          ( 10)                   6.   don't know 

          ( 46)                   7.   no answer 

    121. 	 Did beneficiary  mention anything else that he or she liked
           about the doctor who performed the procedure?
           (CHECK ONLY ONE ANSWER)
    17% (146)  1. yes (GOT0 QUESTION 122)
    82% (687)  2. no
         PLEASE SKIP TO QUESTION 123




                                                         B-25 

122. What did beneficiary                  mention?
         ---m---m-­                                           ---               --         -     ---
         ----------                                           ---               --         -     ---
         -L-----m--                                           ---               --         -     ---
        I-I
123. 	 If a member of your family                     or a friend  required
       [procedure] in the future,                     would you recommend (specify
       doctor)?
        (CHECK ONLY ONE ANSWER)
94% (728)             1.   yes
 6% 	( 47)            2.   no
     ( 29)            3.   don't know
     ( 29)            4.   no answer
124. How would you rate                 [facility]?
        (CHECK ONLY ONE ANSWER)
39%    (307)          1.   excellent
38%    (293)          2.   very good
19%    (149)          3.   good
 4%    ( 28)          4.   fair
 1st       4)         5.   poor
       ( 23)          6.   don't know
       ( 29)          7.   no answer
125. 	 What did you like             about      [facility]?                (Enter    all       answers
       that apply 1
51% (368)   1.             staff
18% (127)   2.             atmosphere
10% ( 72) 3.               comfort
 8% ( 56) 4.               convenience
 7% ( SO) 5.               waiting   time
37% 	(269)  6.             no specific    comment
     ( 15) 7.              don't know
     ( 48) ,8.             no answer
126. 	 Did beneficiary             mention      anything            else     that    he or she liked
       about [facility]?
        (CHECK ONLY ONE ANSWER)
25% (206)  1. yes (GOT0 QUESTION 127)
75% (627)  2. no
     PLEASE SKIP TO QUESTION 128



                                                B-26 

127. What did beneficiary               mention?

                                                                              ---               -     -
                                                                              ---               -     -
                                                                              ---               -     -
          I-I


128..If         a member of your family or a friend      required                     [ 6           1 in
          the    future, would you recommend [facility]?
          (CHECK ONLY ONE ANSWER)
96% (725)          1. yes
 4%(31)            2.no
    ( 34)          3. don't know
    ( 43)          4. no answer
129. 	 Is there anything  that you disliked    about                        the doctor              who
       performed the procedure or the facility?
          (CHECK ONLY ONE ANSWER)
14% (119)  1. yes (GOT0 QUESTION 130)
85% (714)  2. no
     PLEASE SKIP TO QUESTION 134
130. What did you dislike?                  (Enter   all   answers         that     apply 1
23% ( 15)          1.   cost of care
39% ( 26)          2.   waiting    time
42% ( 28)          3.   inadequate     explanations
 5% 	( 3)          4.   no specific     comment
     ( 0)          5.   don't know
     ( 1)          6.   no answer
131. 	 Did beneficiary        -   mention     anything     else   that       he or she
       disliked?
          (CHECK ONLY ONE ANSWER)
74% ( 88) 1. yes (GOT0 QUESTION 132)
26% (31)   2.no
     PLEASE SKIP TO QUESTION 134
132. What did beneficiary              mention?

                                                           --        mm-               -    -        ­
                                                           --        ---               -    -        ­
                                                           --        mm-               -    -        ­
          k&E       SKIP TO QUESTION 134


                                              B-27
133. 	 I look forward to talking to you on (specify                        date
       scheduled for interview).
       Press ENTER to exit survey . . .
       (CHECK ONLY ONE ANSWER)
       1 1 1. Exit beneficiary survey
       PEASE SKIP TO QUESTION 138
134. 	 That was my last question.     Thank you very much for your
       time and cooperation.     Do you have any other comments
       about your procedure ? (Take notes on call sheet) Please
       enter your initials   (type over default  initials).
135. 	 Enter       the a-letter    abbreviation       for   the beneficiary's
       state.        (Type over   default    state)
25%   (298)  1.         CA
18%   (206)  2.         FL
17%   (200)  3.         TX
10%   (118)  4.         PA
 8%   ( 92) 5.          OH
 6%   ( 70) 6.          NC
 5%   ( 58) 7.          IL
 4%   ( 48) 8.          LA
 4%   ( 46) 9.          AZ
 3%   ( 34) 10.         MD
136. Enter         the beneficiary's      sex.     (Type over    default      sex)
33% (278)          1. male
67% (559)          2. female
137. Enter         the beneficiary's      age.
 3%   ( 25)        1.   under 65 years    old
15%   (124)        2.   65-69
27%   (227)        3.   70-74
26%   (215)        4.   75-79
20%   (165)        5.   80-84
10%   ( 81)        6.   85 and older
138. 	 Enter the beneficiary   number.              (Enter 1171 only for
       beneficiaries  whose interviews               must be rescheduled)
       l-l-l-l-l




                                          B-28 

139. 	 Do you want to review     your    answers?
      (CHECK ONLY ONE ANSWER)
            1. yes      (GOT0 QUESTION 2)
      I I
       -
       -    2. no
140. 	 Time interview    was completed
      I-I-I-LL.J




                                   B-29 

